U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                   Health, Safety, and Security Conditions
                 in the H. Carl Moultrie I Courthouse Space
                     Utilized by the U.S. Marshal for the
                     District of Columbia Superior Court


                                  September 2007




                                      I-2007-008-R
                                  TABLE OF CONTENTS


INTRODUCTION ................................................................................... 1

 Background ............................................................................................. 1
 Methodology of the OIG Review ................................................................ 4

RESULTS OF THE REVIEW................................................................... 6

 Conditions in the Cellblock ...................................................................... 6
 Conditions in the Administrative Area ...................................................... 9
 Conditions in the Juvenile Holding Facility............................................. 11
 Agreement Needed for Corrective Action ................................................. 12
 Initiatives to Correct Substandard Conditions ........................................ 13
 Long-Term Options to Improve Working Conditions................................ 14

CONCLUSION AND RECOMMENDATIONS ........................................... 17

APPENDIX: STANDARDS UTILIZED DURING INSPECTIONS................ 19




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   INTRODUCTION


      The Conference Report on the U.S. Troop Readiness, Veterans’
Care, Katrina Recovery, and Iraq Accountability Appropriations Act of
2007 directed the Department of Justice Office of the Inspector General
(OIG) to review the health, safety, and security conditions in the space in
the H. Carl Moultrie I Courthouse (Moultrie Courthouse) utilized by the
United States Marshals Service (USMS). 1 The OIG examined the USMS
space to determine if it met federal construction and maintenance
standards for detention facilities and federal occupational health and
safety standards and made recommendations as appropriate.

      This is a limited version of the OIG’s full 55-page report. The full
report includes information that the USMS considered to be law
enforcement sensitive and that therefore could not be publicly released.
To create this public version of the report, the OIG removed information
from the full report that we agreed was sensitive because it disclosed
potential security vulnerabilities.

Background

       Congress created the District of Columbia Court of Appeals (Court of
Appeals) and the Superior Court of the District of Columbia (Superior
Court) by statute in 1970. 2 The Court of Appeals is the equivalent of a
state supreme court and hears appeals from the Superior Court and
administrative agencies. The Superior Court is responsible for hearing
misdemeanor and felony criminal cases arising under the District of
Columbia Code. To assist the Superior Court in carrying out its
responsibilities, Congress created the U.S. Marshal for the District of
Columbia Superior Court (Marshal) in 1988.

      The Marshal has the duties of other U.S. Marshals and also
performs some of the duties of a local sheriff for the nation’s capital. 3 As

       1 Conference Report, U.S. Troop Readiness, Veterans’ Care, Katrina Recovery,
and Iraq Accountability Appropriations Act (H.R. 1591), 2007, H. Rept. 110-107 at 97.

       2   See Article I, Section 8 of the U.S. Constitution and D.C. Code § 11-101.

       3   The President appoints a U.S. Marshal for each of the 94 federal judicial
districts and the District of Columbia Superior Court. The U.S. Marshals are
responsible for protecting the federal judiciary, court officers, and witnesses;
                                                                                    (Cont.)

U.S. Department of Justice                                                               1
Office of the Inspector General
Evaluation and Inspections Division
part of these duties, the Marshal and Deputy Marshals provide security
in 94 courtrooms in the Moultrie Courthouse and are responsible for the
individual security of 130 judges as well as other officers of the District of
Columbia Courts. The Marshal and his Deputies also work with the
District of Columbia Metropolitan Police Department and Department of
Corrections to ensure that individuals arrested in the District of
Columbia appear for arraignment and that those individuals denied bail
appear for trial.

      To support the Superior Court’s operations, the Marshal and the
USMS staff operate a cellblock for adult prisoners, an administrative
area, and a juvenile holding facility in the Moultrie Courthouse, which
was built 31 years ago. 4

Administration of the District of Columbia Courts

       The District of Columbia Courts are administered by the Joint
Committee on Judicial Administration (the Joint Committee), which is
composed of the Chief Judge and one Associate Judge from the Court of
Appeals and the Chief Judge and two Associate Judges from the Superior
Court. The Executive Officer of the District of Columbia Courts
(Executive Officer) serves as the Secretary of the Joint Committee. 5 The
Joint Committee is the policy-making body for the District of Columbia
Courts and is responsible for general personnel policies, accounting and
auditing, procurement and disbursement, and development and
coordination of statistics and management information systems and
reports. The Joint Committee is also responsible for developing the
budget of the District of Columbia Courts and submits its budget request
directly to the Office of Management and Budget. Congress appropriates
funds directly to the District of Columbia Courts for operating expenses
and capital improvements to the Moultrie Courthouse, while the USMS
budget includes the salaries and administrative expenses of the Marshal
and USMS staff.


apprehending fugitives; transporting prisoners; and seizing property acquired by
criminals through illegal activities. See 28 U.S.C. § 566.

       4 The cellblock includes courtroom holding cells, elevators, and corridors used
to move prisoners through the courthouse, and a vehicle sallyport.

       5 The Joint Committee was created as part of the District of Columbia Court
Reform and Criminal Procedure Act of 1970. See D.C. Code § 11-1701.



U.S. Department of Justice                                                               2
Office of the Inspector General
Evaluation and Inspections Division
The Moultrie Courthouse

       The Moultrie Courthouse was constructed during 1975 and 1976.
It currently houses the Court of Appeals and the Superior Court, which
includes the Superior Court of the District of Columbia Family Court
(Family Court). 6 In addition to courtrooms and judges’ chambers, the
Moultrie Courthouse houses administrative offices for the District of
Columbia Courts, program offices for the District of Columbia Pretrial
Services Agency and the District of Columbia Public Defender Service, a
day-care center, and other ancillary court-related services.

      In the 31 years since its completion, the Moultrie Courthouse has
undergone many changes. It originally had 44 courtrooms. During the
last 30 years, 50 new courtrooms have been added to accommodate the
dockets of the District of Columbia Courts. Chambers were also added
to accommodate more judges. The largest change has been the 10-year
project to consolidate the Family Court in one contiguous area of the
Moultrie Courthouse. 7

The USMS Space in the Moultrie Courthouse

      The space allocated to the USMS by the District of Columbia
Courts includes a cellblock for adult prisoners, courtroom holding cells,
elevators, corridors, and a vehicle sallyport. 8 The USMS space also
includes an administrative area and a juvenile holding facility, which is
being moved to a newly renovated area of the courthouse as part of the
Family Court consolidation.

       The new juvenile holding facility will comply with rules requiring
the sight and sound separation of juvenile defendants from adult
defendants and will allow Deputy Marshals to escort detained juveniles
to the Family Court courtrooms without commingling the juveniles with



       6 The Family Court decides cases involving abuse and neglect, juveniles,
domestic relations, domestic violence, paternity, and support.

       7   District of Columbia Family Court Act of 2001, D.C. Code § 11-1101 et seq.

       8 The vehicle sallyport is a secure garage area used by the USMS for prisoner
transportation vehicles. It is the point of entry into the courthouse for all prisoners.




U.S. Department of Justice                                                                 3
Office of the Inspector General
Evaluation and Inspections Division
the general public or adult prisoners. 9 The renovations to the juvenile
holding facility are the first changes made to the cellblock and prisoner
movement areas since the Moultrie Courthouse was constructed.

       In May 2007, the District of Columbia Courts completed the
District of Columbia Courts Facilities Improvement Feasibility Study for the
U.S. Marshals Service (feasibility study) in response to congressional
concerns about health, safety, and security conditions in the USMS
cellblock and administrative area. This feasibility study identified needed
improvements to the USMS space.

Methodology of the OIG Review

      To evaluate the health, safety, and security conditions in the USMS
space, we conducted interviews and onsite inspections, and performed
document analysis.

      Interviews. We conducted 29 interviews, including interviews with
the Director of the USMS, 6 additional officials from USMS Headquarters,
and the U.S. Marshal for the District of Columbia Superior Court. We
also conducted a group interview with members of the Marshal’s staff,
including seven supervisors and six staff assigned to work in the
Moultrie Courthouse.

       We interviewed officials from the Courts, including the Chief Judge
of the District of Columbia Court of Appeals, who is the Chairman of the
Joint Committee on Judicial Administration in the District of Columbia
(the Joint Committee), the Chief Judge of the Superior Court of the
District of Columbia, the Chairman of the Courts’ Security Committee,
and the Executive Officer. 10 We also interviewed representatives from
other federal and District of Columbia agencies whose employees work in
the Moultrie Courthouse.


       9 The Juvenile Justice and Delinquency Prevention Act of 1974,

42 U.S.C. § 5633(a)(13), requires complete separation of detained juveniles from adult
offenders so that there is no sight or sound contact. Separation must be provided in all
secure areas of the facility, including sallyports and hallways.

       10 The Joint Committee, created by the District of Columbia Court Reform and
Criminal Procedure Act of 1970, is the decision-making body for the District of Columbia
Courts and submits the Courts’ budget request directly to the Office of Management
and Budget. See D.C. Code § 11-1701.



U.S. Department of Justice                                                             4
Office of the Inspector General
Evaluation and Inspections Division
       Onsite Inspections. We conducted three inspections of the USMS
space in the Moultrie Courthouse. The first inspection was conducted by
the OIG and USMS staff assigned to the District of Columbia Superior
Court. Following that inspection, the OIG obtained subject matter
expertise in security and health and safety standards from the Federal
Bureau of Prisons (BOP) and Federal Occupational Health (FOH), a unit
of the U.S. Public Health Service. 11 We conducted a second onsite
inspection of the USMS space with the assistance of engineers from the
BOP’s Technical Support Office, Design and Construction Branch, to
determine the cellblock’s compliance with security standards for
detention facilities. We conducted a third onsite health and safety
inspection with the assistance of subject matter experts provided by the
FOH. During this review, we applied 8 sets of independent security
standards for detention facilities and 22 sets of independent
occupational health and safety standards for administrative buildings,
such as USMS Publication 64: Requirements and Specifications for Special
Purpose and Support Space Manual (Publication 64). 12 See the Appendix
for a complete list of the standards we utilized in our inspections.

      Document Analysis. We reviewed documents that the USMS
provided, including reports describing non-compliance with USMS
standards, budget information, intergovernmental agreements and a
draft memorandum of understanding, memoranda reports the Marshal
provided that described the conditions in the USMS space in the Moultrie
Courthouse, and a June 2007 security survey of the courthouse
conducted by the USMS. 13 We also reviewed documents that the District
of Columbia Courts provided, including budget information on funds
obligated by the Courts for the USMS space, a draft memorandum of
understanding, and the May 2007 District of Columbia Courts Facilities
Improvement Feasibility Study for the U.S. Marshals Service (feasibility
study) that the District of Columbia Courts commissioned.


       11 The BOP Technical Support Office, Design and Construction Branch,

provides expert assistance for the construction, repair, and maintenance of federal
prisons and detention centers. The FOH provides occupational safety and health
inspections to federal agencies. See 42 Fed. Reg. 61317 (Dec. 2, 1977).

       12 The Chairman of the Joint Committee told us that that the Committee has
not agreed that Publication 64 standards are applicable to the Moultrie Courthouse.

       13 Office of Courthouse Management Security Survey Report: District of Columbia
Superior Court, H. Carl Moultrie I Courthouse, 500 Indiana Avenue, NW, June 2007.



U.S. Department of Justice                                                            5
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE REVIEW


      We found serious, uncorrected deficiencies in the health, safety,
and security conditions of the USMS space in the Moultrie Courthouse.
Specifically, our review documented 166 failures to meet federal health,
safety, and security standards in the USMS space there. 14

       In the 31 years since its completion, the Moultrie Courthouse has
undergone many capital improvements without significant improvement
to the conditions in the USMS space. On a daily basis, the cellblock
holds approximately twice the number of prisoners for which it was
designed. BOP engineers, who verified the overcrowding, stated that the
cellblock has reached the end of its useful life. Also, the administrative
area that supports the USMS operations in the rest of the Moultrie
Courthouse has not been renovated in the 20 years since the USMS
moved into that space. The administrative area was designed to hold
approximately half the number of USMS staff currently assigned to the
space. For over 10 years, the USMS has been reporting continuing
health, safety, and security deficiencies to the District of Columbia
Courts. While some repairs have been made over the last 5 years, our
review found that 166 of these deficiencies have not been corrected and
that substandard conditions continue to exist.

       The following sections present a summary of the substandard
conditions we found in the cellblock, the administrative area, and the
juvenile holding facility in the USMS space. We also present the status
of corrective action for the substandard conditions and our conclusion
and recommendations.

Conditions in the Cellblock

       We found 111 substandard health, safety, and security conditions
in the cellblock at the Moultrie Courthouse, some of which have existed
for as long as 10 years. 15 The BOP’s Technical Services Section, Design

       14 We used 8 sets of security standards for detention facilities and 22 sets of
occupational health and safety standards for administrative buildings to evaluate the
working conditions in the USMS space in the Moultrie Courthouse.

       15 The cellblock includes courtroom holding cells, corridors, and elevators used
to move prisoners through the courthouse, and the vehicle sallyport.



U.S. Department of Justice                                                               6
Office of the Inspector General
Evaluation and Inspections Division
and Construction Branch, stated that the cellblock in the USMS space is
more than 30 years old and has reached the end of its useful life.
Furthermore, the BOP engineers stated that the cellblock has not been
well maintained and requires renovation. For example, the BOP
engineers observed problems in the vehicle sallyport, the prisoner
elevators, and communication systems within the cellblock area.

       The substandard conditions contributed to a 2006 escape attempt
that resulted in a prisoner’s death. On January 31, 2006, prisoners from
the District of Columbia Jail were being unloaded from a bus in the
vehicle sallyport at the Moultrie Courthouse. At the time, the garage
door leading into the vehicle sallyport was broken and could not be
lowered. Some of the District of Columbia Department of Corrections
Officers and Deputy Marshals assigned to transfer the prisoners guarded
the open garage door of the vehicle sallyport and did not maintain
constant visual contact with all prisoners as a result. Instead of entering
the cellblock, one prisoner slipped away from the group, crawled
underneath a prisoner transport bus, and clung to the undercarriage as
the bus left the Moultrie Courthouse. Approximately one block away, as
the bus entered a tunnel, the prisoner either let go or lost his grip and
fell onto the roadway. He was hit by a vehicle following the bus and died
instantly.

       Among the other cellblock issues we documented, the FOH experts
assisting us observed that high-efficiency particulate air (HEPA) filtration
units needed to be installed. With the severe overcrowding in the
cellblock noted by the BOP engineers, the HEPA filtration units will help
to reduce the risk of spreading infectious diseases such as tuberculosis.
Details of a few of the substandard conditions in the cellblock, along with
the corrective action required, are presented in Table 1. Many other
substandard conditions are discussed in the full report, but not in this
public version because it would expose potential security vulnerabilities.




U.S. Department of Justice                                                7
Office of the Inspector General
Evaluation and Inspections Division
              Table 1: Substandard Health, Safety, and Security Conditions
                          in the Moultrie Courthouse Cellblock
                                    Agency Identifying the
   Substandard Condition/                                             Corrective Action
                                    Substandard Condition
 Primary Governing Standard                                               Required
                                   USMS     BOP       FOH
 Duct-mounted high-efficiency        X                  X         Install HEPA filters in
 particulate air (HEPA) filters                                   existing duct work.
 should be installed in the                                       Repairs are funded.*
 cellblock area to filter
 contaminants that may be
 recirculated by the air-
 handling system within the
 cellblock.
 Standard: Publication 64
 Five cells for 50 or more                      X                 Increasing the number of
 prisoners in arraignment                                         cells available is not
 holding area exceeds load                                        funded.
 limits.

 Standard: BOP Technical
 Design Guidelines/
 Publication 64
 Isolation cells do not provide                 X                 Replacing or reconfiguring
 for total isolation because the                                  the cells to meet security
 occupants can be seen from                                       standards is not funded.
 other cells.

 Standard: BOP Technical
 Design Guidelines/
 Publication 64
 * In March 2007, the District of Columbia Courts allocated $1.5 million to correct
 substandard conditions in the adult cellblock. The Marshal has elected to use those funds
 to upgrade security and health systems in the adult cellblock.

      The substandard conditions in the cellblock also affect the
employees of three District of Columbia agencies who regularly work
there and use the equipment and space. For example, officers from the
District of Columbia Department of Corrections cited problems similar to
those found by the BOP engineers – problems that make the custodial
transfer of prisoners more difficult. 16


       16   District of Columbia Department of Corrections Officers transport prisoners
needed for grand jury or court appearances at the Moultrie Courthouse from the
District of Columbia Jail and other detention facilities under the terms of an
intergovernmental agreement with the USMS.



U.S. Department of Justice                                                                8
Office of the Inspector General
Evaluation and Inspections Division
       Similarly, the substandard conditions affect the security and
operations of employees of other agencies that conduct business in the
cellblock. Supervisors of both the District of Columbia Pretrial Services
Agency and the District of Columbia Public Defender Service expressed
concerns about privacy and safety in the cellblock’s multi-defendant
interview rooms and in the arraignment courtroom holding cells. 17

Conditions in the Administrative Area

      We found 34 substandard conditions in the administrative area of
the USMS space at the Moultrie Courthouse. The substandard
conditions include standing water on the floor during rainstorms, which
results in constantly wet, moldy carpet. Further, the emergency exit in
the squad room where the Deputy Marshals who provide courtroom
security work is unusable because it is padlocked.

       The FOH inspectors stated that the administrative area has not
been well maintained and requires renovation. For example, the FOH
experts assisting us found that ceiling tiles contaminated with plumbing
waste should have been removed, but instead were left inside the
suspended ceiling in the administrative area when new ceiling tiles were
installed. The plumbing leak had not been repaired, exposing USMS
staff to unsanitary conditions, including mold and other air
contaminants.

      Examples of substandard conditions in the administrative area,
along with the corrective actions required, are presented in Table 2.




        17 Employees of the District of Columbia Pretrial Services Agency enter the

cellblock daily to interview and perform drug tests on newly arrested prisoners.
Information gathered during the interviews is used to prepare pretrial reports, which
recommend conditions of release for individual prisoners.

        Eligibility Examiners for the District of Columbia Public Defender Service enter
the cellblock daily to interview prisoners and determine their eligibility for free legal
representation. Attorneys for the District of Columbia Public Defender Service enter the
cellblock daily to meet with their clients.



U.S. Department of Justice                                                              9
Office of the Inspector General
Evaluation and Inspections Division
             Table 2: Substandard Health, Safety, and Security Conditions
                           in the USMS Administrative Area
                                   Agency Identifying the
   Substandard Condition/                                           Corrective Action
                                   Substandard Condition
    Governing Standard*                                                 Required
                                  USMS     BOP       FOH
 Administrative area floods,        X                  X        Conduct water infiltration
 resulting in mold and mildew.                                  study and industrial
                                                                hygiene study.** The
 Standard: Occupational
                                                                study is not funded.
 Safety and Health
 Administration
 Ceiling tiles contaminated                              X      Find and correct plumbing
 with plumbing waste left                                       leak, and remove
 inside suspended ceiling.                                      contaminated tiles. The
                                                                corrective action is not
 Standard: American                                             funded.
 Industrial Hygiene Association
 * We found that more than one standard applied to most of the conditions we identified.
 ** The FOH inspectors recommended an industrial hygiene study to determine the causes
 of water infiltration and to determine the renovation scope of work needed to address
 deficient electrical; plumbing; heating, ventilation, and air conditioning; and emergency
 egress systems.

       In November 2006, the Marshal temporarily relocated his
administrative staff and the Deputy Marshals on the warrant squad to
rental space 2 blocks from the Moultrie Courthouse to reduce the USMS
staff’s exposure to the substandard health and safety conditions. This
temporary measure costs the USMS $500,000 a year.

      By moving the administrative staff and the warrant squad to rental
space, the Marshal will be able to relocate the Deputy Marshals assigned
to Court Support from the squad room, the section of the administrative
area with the largest number of substandard conditions, including
frequent flooding and moldy walls. 18 However, our analysis shows that
even if the squad room is renovated, the administrative area provided by
the District of Columbia Courts gives the USMS only 50 percent of the
square footage required by Publication 64 for the number of Deputy
Marshals and administrative staff currently assigned to the Moultrie
Courthouse. Publication 64 standards require 125 square feet of space

       18  The Chief Judge of the Superior Court stated that he had asked the Marshal
not to relocate the Deputy Marshals who are assigned to Court Support to offices
outside the Moultrie Courthouse because these Deputy Marshals must be immediately
available to escort prisoners and provide security in the courtrooms.



U.S. Department of Justice                                                         10
Office of the Inspector General
Evaluation and Inspections Division
per Deputy Marshal and also set minimum square footage requirements
for supervisors, administrative staff, locker rooms, and storage rooms.
Further, if the temporarily relocated administrative staff and warrant
squad return to the Moultrie Courthouse, the USMS space requirement
would increase.

Conditions in the Juvenile Holding Facility

      Engineers from the BOP’s Technical Services Section, Design and
Construction Branch, found 21 substandard conditions in the juvenile
holding facility. The BOP team noted that it had been built at the same
time as the cellblock and suffers from the same deficiencies in shared
areas, such as the vehicle sallyport and prisoner circulation corridors.

      During its inspection of the juvenile cellblock, the BOP team
focused predominantly on life safety standards because a new juvenile
holding facility is under construction within the courthouse. They found
problems with the emergency lighting and fire alarm systems in the
current juvenile holding facility. They also noted that there was a
question as to whether the sprinkler heads met Underwriters
Laboratories’ standards. 19

      The current juvenile holding facility will no longer be used when
the new facility being constructed is completed in September 2008 as
part of the Family Court consolidation. 20 The new facility will comply
with rules requiring the sight and sound separation of juvenile
defendants from adult defendants and will allow Deputy Marshals to
escort detained juveniles to the Family Court courtrooms without
commingling the juveniles with the general public or adult prisoners. 21


        19 Underwriters Laboratories Inc. (UL) is an independent, not-for-profit product

safety certification organization that has been testing products and writing Standards
for Safety for over a century. Standards for Safety are developed in conjunction with
specific industries and are designed to help ensure public safety and confidence in UL-
tested products. UL tests products and their components against its safety standards.

       20 The Family Court decides cases involving abuse and neglect, juveniles,
domestic relations, domestic violence, paternity, and support. The District of Columbia
Family Court Act of 2001, D.C. Code § 11-1101 et seq., required the District of Columbia
Courts to consolidate the Family Court’s operations.

       21 The Juvenile Justice and Delinquency Prevention Act of 1974,
42 U.S.C. § 5633(a)(13), requires complete separation of detained juveniles from adult
                                                                                  (Cont.)

U.S. Department of Justice                                                            11
Office of the Inspector General
Evaluation and Inspections Division
The juvenile holding facility will also include secure rooms for the
juvenile detainee population that will be operated by the USMS and an
at-risk room for juveniles in need of protective custody that will be
operated by the District of Columbia Department of Youth Rehabilitation
Services. Until the new juvenile holding facility is operational, only
essential maintenance is planned for the existing facility. As a result,
juveniles will be detained and USMS staff will continue to operate in
substandard conditions until the new facility is completed.

Agreement Needed for Corrective Action

       Improvement of these substandard conditions requires that the
District of Columbia Courts and the USMS agree on the health, safety,
and security standards that apply to the USMS space in the Moultrie
Courthouse and on who will be responsible for requesting and expending
funds for repairs and capital improvements to meet the standards.

      The Chairman of the Joint Committee, the Director of the USMS,
and the Chief Judge of the Superior Court agreed that deciding on the
health, safety, and security standards that apply to the USMS space in
the Moultrie Courthouse is important. Each also expressed the
importance of resolving related issues as part of the discussions on any
agreement.

      The Chairman of the Joint Committee (who is the Chief Judge of
the District of Columbia Court of Appeals) agreed that an agreement is
necessary because repairs and maintenance in the USMS space have
been delayed by disputes over appropriate standards and responsibility
for payment. The Capital Program and Construction Officer, who carries
out repairs authorized by the District of Columbia Courts, stated that the
agreement needs to establish timeliness standards for correcting
substandard conditions by the responsible party.

       The Director of the USMS stated that the issues of timeliness and
responsibility for correcting health, safety, and security conditions are
important and need to be resolved by agreement. The Director
recommended that any agreement include a provision for requesting a
specific appropriation for the maintenance, repair, and capital


offenders so that there is no sight or sound contact. Separation must be provided in all
secure areas of the facility, including sallyports and hallways.



U.S. Department of Justice                                                           12
Office of the Inspector General
Evaluation and Inspections Division
improvements to the USMS space in the District of Columbia Courts’
budget request. 22

       The Chief Judge of the Superior Court agreed that establishing
standards is important, but he also stated that the critical shortage in
the number of Deputy Marshals assigned to the Superior Court is, from a
public safety perspective, an even more important concern. The Chief
Judge stated that the District of Columbia Courts have responded to the
space concerns of the USMS with suggestions for both interim and
long-term solutions and will continue to work with the USMS to
accommodate its space needs. However, the Chief Judge believes that
the shortage in the number of deputies assigned to Superior Court
affects both public safety and the Superior Court’s ability to carry out its
daily operations. The Chief Judge also believes that this is an urgent
matter to be addressed by the USMS and the Courts.

       The Director of the USMS agreed that the formula that the USMS
uses to determine the personnel needs of federal district courts does not
fit the needs of the Superior Court. He noted, however, that the USMS
has difficulty maintaining even the current level of personnel because of
the high turnover of Deputy Marshals, which he said has been caused in
part by the working conditions in the Moultrie Courthouse. The Director
and the Chief Judge of the Superior Court both recognized that
personnel levels and working conditions were related and that a space
agreement between the District of Columbia Courts and the USMS could
address a formula for determining staffing levels and a commitment by
the District of Columbia Courts to provide adequate space for the USMS.

Initiatives to Correct Substandard Conditions

       The Chairman stated that the Joint Committee is focused on the
substandard conditions in the USMS space and recently has begun two
initiatives to improve working conditions. The Executive Officer has been
directed to set aside $1.5 million to address the more serious
substandard health, safety, and security conditions reported by the
Marshal in the cellblock. On June 29, 2007, in response to a request
from the Joint Committee, the Marshal provided a list of his priorities for


       22  In response to a draft of this report, the District of Columbia Courts reported
that it plans to include $50 million for USMS space renovation in the Courts’ fiscal year
2009 budget request.



U.S. Department of Justice                                                             13
Office of the Inspector General
Evaluation and Inspections Division
repairs and improvements. The $1.5 million will correct 5 of the 111
substandard conditions in the cellblock identified in our review.

       The Joint Committee also has directed the Capital Program and
Construction Officer to develop a second initiative to spend $2 million to
convert part of the public space in the Moultrie Courthouse to temporary
administrative space so that part of the USMS staff can be relocated
there while their area is renovated. Implementation of this initiative
could improve working conditions temporarily by allowing for the
renovation of the squad room used by the Deputy Marshals and the
remainder of the existing USMS administrative area. 23 The $2 million
initiative proposed by the Joint Committee does not include plans for
renovations to correct substandard conditions in the squad room or the
remainder of the existing USMS administrative area. The initiative
includes only the demolition of the interior of the existing public space
and the construction of the temporary administrative space.

Long-Term Options to Improve Working Conditions

       In response to congressional interest regarding substandard
conditions in the cellblock and administrative area, the District of
Columbia Courts commissioned a facilities improvement feasibility study
from an architectural firm. Completed in May 2007, the feasibility study
identified an estimated $43 million in needed improvements to meet
Publication 64 standards and other occupational safety and health
standards in the USMS space. The District of Columbia Courts reported
that it plans to include $50 million for USMS space renovation in the
Courts’ fiscal year 2009 budget request, but we found that the Courts
and the USMS have not agreed that the renovation will meet the security
standards for federal detention facilities and occupational health and
safety standards used in the study. Additionally, the USMS expressed
concern that the renovations identified in the feasibility study will not
meet Publication 64 standards, but the District of Columbia Courts does
not agree that Publication 64 standards apply to the Moultrie
Courthouse.



       23 In addition to overcrowding, the squad room has standing water on the floor
during rainstorms, which results in unsanitary conditions, and an inadequate
emergency exit. Because the squad room is not suitable for use as office space, as a
temporary measure the Marshal would like the Joint Committee to provide funds to
renovate the squad room for use as a locker room.



U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
        The Chairman of the Joint Committee told us that the feasibility
study and the USMS’s concerns about the renovations identified in the
feasibility study did not take into account how difficult it is to renovate a
31-year-old building to modern standards. The Chairman stated that
even if the USMS space in the Moultrie Courthouse is renovated, it will
still fall short of USMS standards. Our analysis showed that the
Chairman is correct.

      The Moultrie Courthouse met 59 percent of the standards in a
courthouse security survey conducted by the USMS in June 2007. 24 The
Moultrie Courthouse score of 59 percent was about the same as the
average score in a 2006 USMS nationwide security survey of all the
federal courthouses that have not been renovated or constructed in the
last 10 years. 25 Our analysis showed that while renovated courthouses
had a higher average score, even they generally did not meet the USMS
goal of a score of 80 percent on the courthouse security survey. Federal
courthouses renovated during the last 10 years averaged 74 percent after
renovation. Only 25 of the 47 courthouses renovated in the last 10 years
achieved a score higher than the 80-percent minimum acceptable
standard established by the USMS.

      The Chairman also stated that the District of Columbia Courts are
considering providing more space and improving working conditions by
opening an arraignment courtroom in the building adjacent to the
Moultrie Courthouse at 300 Indiana Avenue, NW. The Chairman stated
that conducting arraignments at a location outside the Moultrie
Courthouse would significantly change USMS operations and space
requirements because it would reduce by half the number of prisoners
that would need to be housed in the Moultrie Courthouse cellblock each
day. The Chairman further stated that, while he supports the proposed
change in operations, implementing that change would require complex
negotiations among the District of Columbia Courts, the USMS, the

       24 Office of Courthouse Management Security Survey Report: District of Columbia

Superior Court, H. Carl Moultrie I Courthouse, 500 Indiana Avenue, NW, June 2007.

       25  The National Security Survey, developed by the USMS Courthouse
Management Group and conducted in 1998, 2002, and 2006, evaluates systems design
and equipment in prisoner movement and operations areas used by the USMS in all
federal courthouses. The survey covers cameras, monitors, intercoms, conduit and
wiring, locking devices, alarms, security consoles, time-lapse recording machines for
monitors in cellblocks, duress alarms, keypads, interlocking sallyports, prisoner
elevator dividers, ballistic materials, bollards, and barriers.



U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
District of Columbia Department of Corrections, and the Metropolitan
Police Department.




U.S. Department of Justice                                             16
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


      Our analysis showed that the USMS space in the Moultrie
Courthouse fails to meet security standards for detention facilities and
occupational health and safety standards for administrative buildings,
and that this results in unacceptable working conditions. We believe
these substandard conditions will continue unless the District of
Columbia Courts and the USMS decide on the applicable security,
health, and safety standards for the USMS space and on who will be
responsible for requesting and expending funds for repairs and
improvements to meet the standards.

      The District of Columbia Courts have completed a feasibility study,
have begun two short-term initiatives to correct substandard conditions,
and are considering long-term plans for capital improvements to the
USMS space. The first initiative is designed to correct 5 of 111
substandard conditions in the cellblock. A second initiative is in the
planning phase and may correct some of the substandard conditions in
the administrative area. Further, the District of Columbia Courts and
the USMS have begun negotiations on long-term plans to improve
working conditions in the Moultrie Courthouse. Regardless of the short-
or long-term plans chosen by the District of Columbia Courts, an
agreement on the applicability and implementation of health, safety, and
security standards will be necessary to implement the plans. Without
such an agreement, the District of Columbia Courts cannot take timely
action to correct substandard health, safety, and security conditions in
the cellblock or the administrative area. As a result, the Marshal,
Deputy Marshals, and administrative staff will continue to work under
substandard conditions until an agreement is reached.

      Because of the number and severity of the substandard conditions
we identified, we believe it is imperative that the District of Columbia
Courts and the USMS reach agreement on correcting these conditions as
expeditiously as possible. The agreement between the District of
Columbia Courts and the USMS should address:

   1. The application of federal standards for detention facilities and
      occupational health and safety standards for administrative
      buildings to the Moultrie Courthouse;




U.S. Department of Justice                                                 17
Office of the Inspector General
Evaluation and Inspections Division
   2. The responsibility for timely maintenance and repair to maintain
      federal standards for detention facilities and occupational health
      and safety standards for administrative buildings;

   3. The plan to correct serious substandard conditions in the
      cellblock, administrative area, and juvenile holding facility;

   4. The method that will be used to determine the number of Deputy
      Marshals, Detention Enforcement Officers, and administrative staff
      that the USMS will request for the District of Columbia Superior
      Court in its annual budget request; and

   5. The inclusion of a specific request for funds to meet health, safety,
      and security standards in the USMS space in the Moultrie
      Courthouse in either the USMS budget request to the Department
      of Justice or the District of Columbia Courts’ budget request to the
      Office of Management and Budget and to Congress for each fiscal
      year.




U.S. Department of Justice                                                 18
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX: STANDARDS UTILIZED DURING INSPECTIONS


Water Infiltration/Moisture Intrusion/Visible Mold Growth
Conditions

1.   A Brief Guide to Mold in the Workplace-Mold Remediation Guidelines
        Safety and Health Information Bulletin (SHIB #03-10-10)
        U.S. Occupational Safety and Health Administration

2.   Report of Microbial Growth Task Force
       American Industrial Hygiene Association, May 2001

3.   Mold Remediation in Schools and Commercial Buildings (EPA 402-K-
     01-001, March 2001)
        Office of Air and Radiation, Indoor Environments Division (6609-J)
        U.S. Environmental Protection Agency

Heating, Ventilation, and Air Conditioning Conditions

4.   Thermal Environmental Conditions for Human Occupancy
     (ANSI/ASHRAE 55-1992)
        American Society of Heating, Refrigeration, and Air Conditioning
        Engineers, Inc.

5.   Ventilation for Acceptable Indoor Air Quality
     (ANSI/ASHRAE 62-2001)
        American Society of Heating, Refrigeration, and Air Conditioning
        Engineers, Inc.

Suspect Asbestos-Containing Building Construction Material (ACBM)
Conditions

6.   Occupational Safety and Health Standards, Subpart Z – Toxic and
     Hazardous Substances, Asbestos
       29 C.F.R. § 1910.1001 and Appendixes A – J

7.   Environmental Protection Agency Standards, National Emission
     Standards for Hazardous Air Pollutants
        40 C.F.R. Part 61, Subpart M – National Emission Standard for
        Asbestos



U.S. Department of Justice                                              19
Office of the Inspector General
Evaluation and Inspections Division
Electric Conditions

8.   Occupational Safety and Health Standards, Subpart J – General
     Environmental Controls, The Control of Hazardous Energy –
     Lockout/Tagout
        29 C.F.R. § 1910.147

Air and Surface Contaminant Conditions

9.   Occupational Safety and Health Standards, Subpart I - Personal
     Protective Equipment, Respiratory Protection
        29 C.F.R. § 1910.134

10. Occupational Safety and Health Standards, Subpart Z – Toxic and
    Hazardous Substances, Air Contaminants
      29 C.F.R. § 1910.1000, Table Z-1

11. Occupational Safety and Health Standards, Subpart I - Personal
    Protective Equipment, General Requirements
       29 C.F.R. § 1910.132

12. Classification of Polychlorinated Biphenyls (PCBs) Standards
    (STD 01-04-002 – STD 1-4.2)
       United States Occupational Safety and Health Administration

13. Polychlorinated Biphenyls (PCBs) Manufacturing, Processing,
    Distribution in Commerce, and Use Prohibitions
       40 C.F.R. Part 761

Potential Deficient Lighting Conditions

14. Safety and Health Regulations for Construction, Subpart D –
    Occupational Health and Environmental Controls, Illumination
       29 C.F.R. § 1926.56

15. “Practice for Industrial Lighting, for Recommended Values of
    Illumination (A11.1-1965, R1970)
        American National Standards Institute




U.S. Department of Justice                                            20
Office of the Inspector General
Evaluation and Inspections Division
Slip, Trip, and Fall Conditions

16. Occupational Safety and Health Standards, Subpart D –
    Walking-Working Surfaces, General Requirements
      29 C.F.R. § 1910.22

Potential Unsanitary Conditions

17. Occupational Safety and Health Standards, Subpart J – General
    Environmental Controls, Sanitation
      29 C.F.R. § 1910.141

18. Safety and Health Regulations for Construction, Subpart D –
    Occupational Health and Environmental Controls, Sanitation
       29 C.F.R. § 1926.51

19. Occupational Safety and Health Standards, Subpart J – General
    Environmental Controls, Sanitation
      29 C.F.R. §§ 1910.141(a)(1), 1910.141(a)(2)(v), 1910.141(a)(5), and
      1910.141(d)(1)

Fire Evacuation and Portable Fire Extinguisher Conditions

20. Occupational Safety and Health Standards, Subpart E – Exit Routes,
    Emergency Action Plans, and Fire Prevention Plans, Design and
    Construction Requirements for Exit Routes
      29 C.F.R. § 1910.36

21. Occupational Safety and Health Standards, Subpart L – Fire
    Protection, Fire Suppression Equipment
       29 C.F.R. § 1910.157

Unsecured Railing Conditions

22. Occupational Safety and Health Standards, Subpart D –
    Walking-Working Surfaces, Guarding Floor and Wall Openings and
    Holes
      29 C.F.R. § 1910.23




U.S. Department of Justice                                            21
Office of the Inspector General
Evaluation and Inspections Division
Security Conditions in Federal Detention Facilities

23. USMS Publication 64: Requirements and Specifications for Special
    Purpose and Support Space Manual

24. BOP Technical Design Guidelines

25. National Fire Protection Agency 101, Life Safety Code

26. The Americans with Disabilities Act (ADA)
      42 U.S.C. § 12101 et seq.

27. International Building Code

28. Commission on Accreditation for Law Enforcement Agencies,
    Standards for Law Enforcement Agencies
       Chapter 72, Holding Facility, and Chapter 73, Court Security

29. American Correctional Association Standards for Local Adult
    Detention Facilities

30. The Juvenile Justice and Delinquency Prevention Act of 1974
      42 U.S.C. § 5601 et seq.




U.S. Department of Justice                                            22
Office of the Inspector General
Evaluation and Inspections Division
